                                       AAAAAAAAAAAAAAAAA




              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections




Inspection Report 


Personal Property Management at
Lawrence Livermore National
Laboratory




INS-O-09-03                             May 2009
                              Department of Energy
                                Washington, DC 20585



                                      May 28, 2009

MEMORANDUM FOR THE ADMINISTRATOR, NATIONAL NUCLEAR
                 SECURITY ADMINISTRATION

FROM: 	                  Elise M. Ennis
                         Assistant Inspector General for Inspections

SUBJECT:                 I	 NFORMATION: Inspection Report on “Personal Property
                          Management at Lawrence Livermore National Laboratory”

BACKGROUND

The Department of Energy’s (DOE’s) Lawrence Livermore National Laboratory
(Livermore) is a premier research and development institution for science and technology
supporting the core mission of national security. According to Livermore, as of
November 2008 the Laboratory managed 64,933 items of Government personal property
valued at about $1 billion. At the beginning of Fiscal Year 2008, Livermore reported 249
DOE property items valued at about $1.3 million that were missing, unaccounted for, or
stolen during Fiscal Year 2007.

Livermore centrally tracks property utilizing the Sunflower Assets system (Sunflower),
which reflects the cradle to grave history of each property item. Changes in the
custodianship and/or location of a property item must be timely reported by the custodian
to the respective property center representative for updating in Sunflower.

In Fiscal Year 2008, over 2,000 individuals were terminated as a result of workforce
reduction at Livermore, of which about 750 received a final notification of termination on
the same day that they were required to depart the facility. All of these terminations
potentially necessitated updates to the property database, but the involuntary terminations
had the potential to pose particular challenges because of the immediacy of individuals’
departures.

The objective of our inspection was to evaluate the adequacy of Livermore’s internal
controls over Government property. Based upon the results of our preliminary field
work, we particularly focused on personal property assigned to terminated individuals
and stolen laptop computers.
RESULTS OF INSPECTION

We concluded that Livermore’s internal controls over property could be improved, which
could help to reduce the number of missing, unaccounted for, or stolen property items.
Specifically, we found that:

   •	 The location and/or custodian of approximately 18 percent of the property items in
      our sample, which was drawn from the property assigned to individuals terminated
      on short notice in 2008, was inaccurately reflected in Sunflower. The data in this
      system is relied upon for tracking purposes, so inaccurate entries could increase the
      probability of property not being located during inventories and, thus, being
      reported as “lost” or “missing.” We believe that providing formal training to
      property custodians, which was not being done at the time of our inspection, could
      help improve this situation.

   •	 Some property custodians were not adequately protecting their Government
      laptop computers when taking them offsite, and they were not held accountable
      for the subsequent theft of the laptops.

We made several recommendations to management intended to improve property
controls at Livermore.

MANAGEMENT REACTION

In comments on a draft of this report, management agreed with the report and its
recommendations. However, management’s comments did not include planned
corrective actions with target completion dates; therefore, a management decision is
required. Management’s comments are included in their entirety at Appendix C of the
report.

Attachment

cc: 	 Chief of Staff
      Manager, Livermore Site Office
      Director, Policy and Internal Controls Management (NA-66)
      Director, Office of Internal Review (CF-1.2)
      Audit Liaison, Livermore Site Office
PERSONAL PROPERTY MANAGEMENT AT LAWRENCE
LIVERMORE NATIONAL LABORATORY


TABLE OF
CONTENTS


             OVERVIEW

             Introduction and Objective     1    


             Observations and Conclusions   2    



             DETAILS OF FINDINGS

             Property Accountability        3


             Stolen Laptops                 4    



             RECOMMENDATIONS                4    



             MANAGEMENT COMMENTS            5    



             INSPECTOR COMMENTS             5    



             APPENDICES

             A. Scope and Methodology       6    


             B. Prior OIG Reports           7


             C. Management Comments         8

Overview 


INTRODUCTION 
   The Department of Energy’s (DOE’s) Lawrence Livermore
AND OBJECTIVE
   National Laboratory (Livermore) is a premier research and
                 development institution for science and technology supporting the
                 core mission of national security. Livermore is managed and
                 operated by Lawrence Livermore National Security for DOE’s
                 National Nuclear Security Administration.

                 As the site managing and operating contractor, Lawrence Livermore
                 National Security is responsible for the efficient and economical
                 management of Government personal property throughout its life
                 cycle. According to a Livermore property management official, as of
                 November 2008 Livermore managed 64,933 items of Government
                 personal property valued at about $1 billion. At the beginning of
                 Fiscal Year (FY) 2008, based upon its wall to wall inventory,
                 Livermore reported 249 DOE property items valued at about $1.3
                 million that were missing, unaccounted for, or stolen during FY 2007.

                 Livermore centrally tracks property utilizing the Sunflower Assets
                 system (Sunflower), which is a property management database
                 common to several DOE facilities. Sunflower records the cradle to
                 grave history of each property item. Each department at
                 Livermore has a property center representative who maintains the
                 database and performs associated administrative functions for that
                 department. A property custodian name and a property location
                 must be identified in order to enter information into Sunflower.
                 Changes in the custodianship and/or location of a property item
                 must be timely reported by the custodian to the property center
                 representative for updating in Sunflower.

                 In FY 2008, over 2,000 individuals were terminated as a result of
                 workforce reduction at Livermore, of which about 750 received a
                 final notification of termination on the same day that they were
                 required to depart the facility. All of these terminations potentially
                 necessitated updates to the property database, but the involuntary
                 terminations had the potential to pose particular challenges because
                 of the immediacy of individuals’ departures.

                 The objective of our inspection was to evaluate the adequacy of
                 Livermore’s internal controls over Government property. Based
                 upon the results of our preliminary field work, we particularly
                 focused on personal property assigned to terminated individuals
                 and stolen laptop computers.




Page 1	                                           Personal Property Management
                                                  at Lawrence Livermore National
                                                  Laboratory
OBSERVATIONS AND 	   We concluded that Livermore’s internal controls over property
CONCLUSIONS 	        could be improved, which could help to reduce the number of
                     missing, unaccounted for, or stolen property items. Specifically,
                     we found that:

                        •	 The location and/or custodian of approximately 18 percent of
                           the property items in our sample, which was drawn from the
                           property assigned to individuals terminated on short notice in
                           2008, was inaccurately reflected in Sunflower. The data in
                           this system is relied upon for tracking purposes, so inaccurate
                           entries could increase the probability of property not being
                           located during inventories and, thus, being reported as “lost”
                           or “missing.” We believe that providing formal training to
                           property custodians, which was not being done at the time of
                           our inspection, could help improve this situation.

                        •	 Some property custodians were not adequately protecting
                           their Government laptop computers when taking them
                           offsite, and they were not held accountable for the
                           subsequent theft of the laptops.

                     The Office of Inspector General (OIG) has conducted several
                     reviews that identified weaknesses in property management at
                     other DOE sites. These reports are listed in Appendix B.




Page 2	                                               Observations and Conclusions
Details of Findings 


PROPERTY           We found that the location and/or custodian of approximately 18
ACCOUNTABILITY     percent of the property items in our sample, which was drawn from
                   the property assigned to individuals terminated on short notice in
                   2008, was inaccurately reflected in Sunflower.

                   Livermore’s “Property Management Policies and Procedures” states
                   that “The [property] custodian is responsible for knowing the location
                   of the property and is accountable for its maintenance, condition, and
                   physical security.” In addition, custodians must timely inform their
                   property center representative of property location and/or custodian
                   changes, so the representative can update the property’s information in
                   Sunflower. We believe that this is of particular importance because
                   the system is relied upon for tracking purposes, so items not being
                   properly annotated in Sunflower could increase the probability of the
                   property not being located during subsequent property inventories and,
                   thus, being reported as “lost” or “missing.”

                   To determine the accuracy of Sunflower data pertaining to the many
                   recently terminated individuals, we sampled 125 property items
                   assigned to 75 of the individuals who were given a final termination
                   notification and were required to depart the facility on the same day.
                   The 125 items, which included computers, cameras, and laboratory
                   equipment, had been redistributed to new custodians. Using the data
                   in Sunflower and with the assistance of property center
                   representatives, we physically searched for the 125 property items. Of
                   the 125 items, we could not immediately locate 22 items (about 18
                   percent) because changes in custodianship and/or property location
                   had not been updated in Sunflower as required. We were unable to
                   ascertain who was at fault for the erroneous information.

                   Several of the missing items were computers, some of which could
                   only be located when the property center representatives
                   electronically “pinged” the computers via the local network to
                   determine their physical location since no one we interviewed had
                   any knowledge as to their whereabouts. Ultimately, we were able
                   to determine the physical location and custodianship of each of the
                   22 items and advised Livermore’s property center representatives
                   of the correct information.

                   We determined that Livermore does not provide formal training to
                   property custodians on their responsibilities. We were told by a
                   property management official that Livermore relies on property
                   center representatives to informally train property custodians on
                   their responsibilities. We believe that providing formal training to
                   the custodians could help improve this situation.



Page 3                                                            Details of Findings
STOLEN LAPTOPS 
   We found that some property custodians were not adequately
                   protecting their Government laptop computers when taking them
                   offsite, and they were not held accountable for the subsequent thefts of
                   the laptops. DOE Order 580.1, “Department of Energy Personal
                   Property Management Program,” states that appropriate physical and
                   administrative controls must be provided for sensitive property items,
                   which include laptop computers. Livermore’s property manual states
                   that custodians must take reasonable measures to safeguard property
                   against theft, loss, destruction, and damage. The manual also states
                   that (1) a property custodian may be held financially liable for the
                   repair or replacement of property that is lost, damaged, destroyed, or
                   stolen as the result of willful misconduct or gross negligence by the
                   property custodian and (2) individuals who engage in conduct
                   prohibited by the Laboratory’s property management policies are
                   subject to “corrective action” up to and including dismissal.

                   During the course of our field work, we interviewed nine
                   individuals who had reported their Government laptops stolen.
                   Five said their laptops were stolen from their personal vehicles
                   while offsite, and four of the individuals acknowledged that their
                   laptops were clearly visible from outside their vehicles. They also
                   acknowledged that, in hindsight, they should have better protected
                   their laptops. We confirmed with the individuals that none of them
                   had received any disciplinary action or were held financially liable
                   for the stolen laptops.

RECOMMENDATIONS
   We recommend the Manager, Livermore Site Office:

                      1.	 Ensures that Livermore’s Sunflower database contains 

                          accurate information, so property can be readily tracked 

                          and located. 


                      2.	 Ensures that Livermore establishes and provides property
                          custodian training regarding roles and responsibilities
                          consistent with property management policies and procedures.

                      3.	 Ensures that Livermore takes measures to better safeguard
                          Government property against theft, and that appropriate
                          disciplinary action is taken against property custodians who fail
                          to adhere to these measures.




Page 4	                                                           Recommendations
MANAGEMENT	   In responding to a draft version of this report, management agreed
COMMENTS	     with the report and its recommendations, stating that detailed
              corrections will be provided during the Management Decision
              process. Management’s comments are provided in their entirety in
              Appendix C of this report.

INSPECTOR 	   We found management’s comments to be generally responsive
COMMENTS	     to our report. We will evaluate the adequacy of management’s
              corrective actions upon receipt of the Management Decision.




Page 5	                              Management and Inspector Comments
Appendix A 


SCOPE AND 	     We performed the majority of our inspection field work between
METHODOLOGY 	   July 2008 and January 2009. We interviewed Livermore
                employees and affiliated personnel and National Nuclear Security
                Administration officials regarding personal property management
                policies and procedures. We reviewed Livermore and DOE
                policies, procedures, and records involving personal property.
                Documentation reviewed for this inspection included:

                   •	 DOE Order 580.1, “Department of Energy Personal
                      Property Management Program,” and

                   •	 Lawrence Livermore National Laboratory “Property
                      Management Policies and Procedures.”

                Also, pursuant to the “Government Performance and Results Act
                of 1993,” we reviewed Livermore’s performance measurement
                processes as they relate to personal property management.

                This inspection was conducted in accordance with the “Quality
                Standards for Inspections” issued by the President’s Council on
                Integrity and Efficiency.




Page 6	                                               Scope and Methodology
Appendix B 


Prior OIG Reports 	   The following DOE OIG reports are related to personal property
                      management:

                         •	 “Property Control and Accountability at the Idaho National
                            Laboratory” (DOE/IG-0687, April 2005);

                         •	 “Operations at Los Alamos National Laboratory”
                            (DOE/IG-0584, January 2003);

                         •	 “Inspection on the Management of Excess Personal
                            Property at Lawrence Livermore National Laboratory”
                            (INS-O-02-01, November 2001);

                         •	 “Inspection of the Management of Personal Property at the
                            Ashtabula Environmental Management Project” (DOE/IG-
                            0530, November 2001); and,

                         •	 “Inspection of Surplus Computer Equipment Management
                            at the Savannah River Site” (DOE/IG-0472, June 2000).




Page 7	                                                            Prior OIG Reports
Appendix C 




                                     April 23, 2009




MEMORANDUM FOR:              Elise M. Ennis
                             Assistant Inspector General
                               for Inspections and Special Inquiries

FROM:                        Michael C. Kane /S/
                             Associate Administrator
                              for Management and Administration

SUBJECT:                     Comments to Draft Inspection Report on Missing/Stolen
                             Property at Livermore; Project No. S08IS011; IDRMS No.
                             2008-02105


The National Nuclear Security Administration (NNSA) appreciates the opportunity to review the
Inspector General’s (IG) draft report, Personal Property Management at Lawrence Livermore
National Laboratory. We understand that this inspection was initiated to determine if Lawrence
Livermore National Laboratory (LLNL) is following applicable policies and procedures
regarding missing and stolen property items.

NNSA appreciates the fact that the IG’s inspection revealed that LLNL’s internal controls over
property could be improved. The Livermore Site Office and Laboratory have paid attention to
the IG’s observations and will correct the deficiencies noted. NNSA agrees with the report and
the recommendations and we will provide detailed corrections to the recommendations during
the Management Decision process.

Should you have any questions about this response, please contact Cathy Tullis, Acting Director,
Policy and Internal Controls Management, at 202-586-3857.

cc: 	 Alice Williams, Manager, Livermore Site Office
      David Boyd, Senior Procurement Executive
      Karen Boardman, Director, Service Center




Page 8	                                                                Management Comments
                                                                      IG Report No. INS-O-09-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.	 What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding this
    report?

2.	 What additional information related to findings and recommendations could have been
    included in the report to assist management in implementing corrective actions?

3.	 What format, stylistic, or organizational changes might have made this report’s overall
    message clearer to the reader?

4.	 What additional actions could the Office of Inspector General have taken on the issues
    discussed in this report which would have been helpful?

5.	 Please include your name and telephone number so that we may contact you should we have
    any questions about your comments.


Name	                                         Date

Telephone 	                                   Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1) 

                                     Department of Energy 

                                    Washington, DC 20585 


                                  ATTN: Customer Relations 


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
